Supreme Court, U.S.
FILED

JUN 2 4 2021

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-1641

Marietta Memorial Hospital Employee Health Benefit Plan, et al.,

Davita Inc*, et al.

(Petitioner)

(Respondent)

I. DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

E Please enter my appearance as Counsel of Record for all. respondents.
0 There are multiple respondents, and I do not, represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar. oft
will be filed by a B'

Court. Should a response be requested, the response

Signature
Date:

June 23,

21

Matthew M. Leland
Mr.
Li Ms.
0 Mrs. 0 Miss
King & Spalding LLP
Firm

(Type or print) Name

Address

1700 Pennsylvania Avenue, N.W., Suite 200

City & State
Phone

Washington, D.C.

(202) 626-5527

Zip
Email

20006

mleland@kslaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

ft
RECEIVED

CC: John J. Kulewioz, Vorys, Sater, Seymour and Pease LLP, 52 East Gay Street. P

JUN 2 5 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

cc:

John J. Kulewicz
Counsel of Record
Rodney A. Holaday
VORYS, SATER, SEYMOUR AND PEASE LLP
52 East Gay Street
Columbus, OH 43216
(614) 464-5634
jjkulewicz@vorys.com
raholaday@vorys.com
Counsel for Petitioners Marietta Memorial Hospital
Employee Health Benefit Plan, et al.
William H. Prophater, Jr.
NEWHOUSE, PROPHATER, KOLMAN & HOGAN, LLC
3366 Riverside Drive, Suite 103
Columbus, OH 43221,
(674) 255-5441
wprophater@npkhlaw.com
Counsel for Marietta Memorial Hospital Employee Health Benefit Plan and
Marietta Memorial Hospital
Deanna Reichel
FISH & RICHARDSON
60 S. Sixth Street
Suite 3200
Minneapolis, MN 55402
612-335-5070
reichel@fr.com
Counsel for Dialysis Patient Citizen

